                     U.S. ENVIRONMENTAL PROTECTION AGENCY

                     OFFICE OF INSPECTOR GENERAL



                     EPA’s Alternative Asbestos
                     Control Method Experiments
                     Lacked Effective Oversight
                     and Threatened Human Health
                     Report No. 14-P-0359              September 25, 2014




Scan this mobile
code to learn more
about the EPA OIG.
Report Contributors:                                 Benjamin Beeson
                                                     Martha Chang
                                                     Christine El-Zoghbi
                                                     Eric Lewis
                                                     Jennifer Pallotta
                                                     Wendy Wierzbicki
                                                     Michael Wilson


Abbreviations

AACM           Alternative Asbestos Control Method
ADP            Action Development Process
CERCLA         Comprehensive Environmental Response, Compensation and Liability Act
CFR            Code of Federal Regulations
CWA            Clean Water Act
EIS            Environmental Impact Statement
EPA            U.S. Environmental Protection Agency
NAA            No Action Assurance
NEPA           National Environmental Policy Act
NESHAP         National Emission Standards for Hazardous Air Pollutants
NRMRL          National Risk Management Research Laboratory
OAQPS          Office of Air Quality Planning and Standards
OAR            Office of Air and Radiation
OECA           Office of Enforcement and Compliance Assurance
OIG            Office of Inspector General
ORD            Office of Research and Development
OSHA           Occupational Safety and Health Administration
RACM           Regulated asbestos-containing material
U.S.C.         U.S. Code

Cover photo: An example of the beginning stage of the Alternative Asbestos Control Method
             process. The photo is from the AACM 3 report. (EPA photo)


 Are you aware of fraud, waste or abuse in an           EPA, Office of Inspector General
 EPA program?                                           1200 Pennsylvania Avenue, NW (2410T)
                                                        Washington, DC 20460
 EPA Inspector General Hotline                          (202) 566-2391
 1200 Pennsylvania Avenue, NW (2431T)                   www.epa.gov/oig
 Washington, DC 20460
 (888) 546-8740
 (202) 566-2599 (fax)
 OIG_Hotline@epa.gov                                    Subscribe to our Email Updates
                                                        Follow us on Twitter @EPAoig
 More information at www.epa.gov/oig/hotline.html.      Send us your Report Suggestions
                        U.S. Environmental Protection Agency                                                   14-P-0359
                                                                                                       September 25, 2014
                        Office of Inspector General


                        At a Glance
Why We Did This Review             EPA’s Alternative Asbestos Control Method
The U.S. Environmental             Experiments Lacked Effective Oversight and
Protection Agency (EPA),
Office of Inspector General
                                   Threatened Human Health
(OIG), assessed the EPA’s
                                    What We Found
oversight of the Alternative
Asbestos Control Method            The EPA conducted the AACM and Fort Worth                     Improving oversight of
(AACM) experiments. This           Method research for over a decade without                     the EPA’s research
review follows EPA OIG Report      appropriate oversight or an agreed research goal.             activities can minimize
No. 12-P-0125, Early Warning       This resulted in wasted resources and the potential           the risk of waste,
Report: Use of Unapproved                                                                        noncompliance with
                                   exposure of workers and the public to unsafe levels of        EPA rules and policies,
Asbestos Demolition Methods        asbestos. This occurred because:
May Threaten Public Health,                                                                      and project failures.
issued December 14, 2011.
                                     The EPA offices involved did not conduct the research under a controlled and
                                      defined agency process that would have ensured consensus and oversight.
In 1999, the city of Fort Worth,
                                     The EPA disregarded research guidance designed to ensure research quality.
Texas, proposed an alternative
method to demolish asbestos-         The EPA agreed not to enforce environmental laws during the research when
containing buildings. In 2003,        other legal means for conducting the research were available.
the EPA’s Office of Research
and Development (ORD),             The EPA spent almost $2.3 million in contractor costs and expenses from 2004
National Risk Management           through 2012, and $1.2 million in research staff time on AACM experiments from
Research Laboratory, took over     2005 through 2012. However, these figures only represent a portion of the cost,
and renamed the effort the         since the agency does not track contributions from outside organizations or EPA
AACM. The EPA’s Office of          staff time by project. The high dollar cost, potential public health risks, and failure
Enforcement and Compliance         of the AACM to provide reliable data and results are management control
Assurance enabled the              problems that need to be addressed.
experiments by granting
enforcement discretion. The         Recommendations and Planned Corrective Actions
ORD terminated the project in
2011 due to technical              We recommend that the EPA improve research oversight by requiring significant
deficiencies.                      research to follow a controlled process, tracking project costs and contributions,
                                   and reviewing and resolving internal EPA comments. We recommend that the
The report addresses the           EPA establish a process for the review of alternative regulatory emission control
following EPA goal or              method submissions, and establish and follow standard procedures. We also
cross-agency strategy:             recommend that the EPA improve controls over issuing No Action Assurance
                                   letters. The agency generally provided acceptable corrective actions. Ten of the
  Embracing EPA as a high-        11 recommendations we made are resolved and corrective actions are ongoing or
   performing organization.        completed. One recommendation is unresolved, which the agency will need to
                                   address in its final response to the report.
Send all inquiries to our public
affairs office at (202) 566-2391    Noteworthy Achievements
or visit www.epa.gov/oig.
                                   The ORD has adopted a new process to estimate the resources expected to be
The full report is at:
                                   used on projects, which should provide an initial cost baseline for projects.
www.epa.gov/oig/reports/2014/
20140925-14-P-0359.pdf
                       UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                    WASHINGTON, D.C. 20460

                                                                                      THE INSPECTOR GENERAL




                                          September 25, 2014

MEMORANDUM

SUBJECT:       EPA’s Alternative Asbestos Control Method Experiments
               Lacked Effective Oversight and Threatened Human Health
               Report No. 14-P-0359

FROM:          Arthur A. Elkins Jr.

TO:            See Below

This is our report on the subject review conducted by the Office of Inspector General (OIG) of the
U.S. Environmental Protection Agency (EPA). This report contains findings that describe the problems
the OIG has identified and corrective actions the OIG recommends. This report represents the opinion of
the OIG and does not necessarily represent the final EPA position. Final determinations on matters in
this report will be made by EPA managers in accordance with established audit resolution procedures.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this report
within 60 calendar days. You should include planned corrective actions and completion dates for all
unresolved recommendations. Your response will be posted on the OIG’s public website, along with our
memorandum commenting on your response. Your response should be provided as an Adobe PDF file
that complies with the accessibility requirements of Section 508 of the Rehabilitation Act of 1973, as
amended. The final response should not contain data that you do not want to be released to the public;
if your response contains such data, you should identify the data for redaction or removal along with
corresponding justification.

We will post this report to our website at http://www.epa.gov/oig.


Addressees:
Lisa Feldt, Acting Deputy Administrator
Cynthia Giles, Assistant Administrator for Enforcement and Compliance Assurance
Janet McCabe, Acting Assistant Administrator for Air and Radiation
Lek Kadeli, Acting Assistant Administrator for Research and Development
EPA’s Alternative Asbestos Control Method Experiments                                                                           14-P-0359
Lacked Effective Oversight and Threatened Human Health



                                    Table of Contents

 Chapters
   1    Introduction ......................................................................................................         1

                Purpose .....................................................................................................       1
                Background ...............................................................................................          1
                Alternative Asbestos Control Method Research .........................................                              3
                Scope and Methodology ............................................................................                  5
                Prior Evaluation and Audit Coverage .........................................................                       6
                Responsible Offices ...................................................................................             7

   2    EPA’s Use of Enforcement Discretion to Continue the Experiments
        Increased Risks ................................................................................................            8

                Available Methods for Conducting the AACM Project ................................                                  8
                OECA Provided Protection From EPA Enforcement in Violation
                  of Its Own Policy ....................................................................................           10
                EPA’s Enforcement Discretion Left Key Issues Unresolved ......................                                     11
                Conclusions ...............................................................................................        12
                Recommendations .....................................................................................              13
                Agency Response to Draft Report and OIG Evaluation ..............................                                  13

   3    Management Practices at EPA’s Office of Research and
        Development Were Ineffective for AACM Research.......................................                                      14

                ORD Did Not Provide Effective Oversight of AACM Research ...................                                       14
                NRMRL Did Not Adequately Address Health and Environmental
                  Issues in AACM Experiments.................................................................                      17
                Conclusions ...............................................................................................        20
                Recommendations .....................................................................................              21
                Agency Response to Draft Report and OIG Evaluation ..............................                                  21

   Status of Recommendations and Potential Monetary Benefits .............................                                         22



 Appendices
   A    Agency Response to Draft Report and OIG Comments ................................                                          23

   B    Agency Technical Comments to Official Draft Report and
        OIG Comments .................................................................................................             28

   C    Distribution ......................................................................................................        43
                                            Chapter 1
                                             Introduction

Purpose
                   The U.S. Environmental Protection Agency (EPA), Office of Inspector General
                   (OIG), assessed the EPA’s oversight of the Alternative Asbestos Control Method
                   (AACM) demolition experiments. This review also addresses results of the EPA
                   OIG Report No. 12-P-0125, Early Warning Report: Use of Unapproved Asbestos
                   Demolition Methods May Threaten Public Health, issued December 14, 2011.1
                   The AACM experiments are no longer occurring. This report documents how the
                   EPA allowed these experiments to proceed, and identifies actions needed to
                   better manage processes and resources to protect public health in the future.

Background
                   Asbestos is a human carcinogen with no known risk-free level of exposure.
                   Asbestos exposure can lead to serious diseases, such as asbestosis, lung cancer
                   and mesothelioma. In 1973, the EPA issued the asbestos National Emission
                   Standards for Hazardous Air Pollutants (NESHAP) to protect human health by
                   reducing asbestos exposure during building demolitions and other activities.
                   According to the asbestos NESHAP and Occupational Safety and Health
                   Administration (OSHA) regulations, trained technicians must remove regulated
                   asbestos-containing material (RACM) intact prior to demolition. Removing
                   RACM intact reduces asbestos fiber release.

                   NESHAP Efforts

                          Required NESHAP Revisions. The EPA made its last comprehensive
                           revision to the asbestos NESHAP in 1990. The 1990 Clean Air Act
                           Amendments under Section 112(q) required that the EPA review the
                           asbestos NESHAP by 2000. The EPA’s Office of Air and Radiation
                           (OAR) is responsible for the asbestos NESHAP, and the office said it
                           does not have the resources to perform an asbestos NESHAP review and
                           other required reviews.

                          EPA Offices Researched NESHAP Alternatives. In 1999, the city of
                           Fort Worth proposed its method to the EPA. EPA offices have researched
                           alternative demolition work-practice methods, such as the Fort Worth
                           Method and the AACM, as alternatives to the asbestos NESHAP. Both of
                           these methods involve wetting the building prior to and during the
                           demolition in an effort to limit asbestos fiber release. Both of these

1
    http://www.epa.gov/oig/reports/2012/20111214-12-P-0125.pdf


14-P-0359                                                                                        1
                methods are similar to the NESHAP-approved provision used for
                buildings that are structurally unsound and in danger of imminent
                collapse (imminent collapse provision) found in the Code of Federal
                Regulations (CFR) under NESHAP 40 CFR § 61.145 (a)(3). Under the
                imminent collapse provision, demolition crews wet the RACM and use
                demolition equipment to break the RACM.

                The goal of the AACM and Fort Worth Method research was to propose
                an alternative demolition procedure to the asbestos NESHAP. The city of
                Fort Worth proposed the alternative demolition procedure for “the
                demolition of substandard structures that are not in imminent danger of
                collapse.” The AACM leaves some or all RACM in place and wets the
                building with amended water prior to and during the demolition in an
                effort to limit asbestos fiber release. Amended water is water to which
                surfactant (wetting agent) has been added to increase the ability of the
                liquid to penetrate asbestos-containing material. The Fort Worth Method
                used untreated water from a fire hydrant. Both methods use demolition
                equipment to break RACM.




                Demolition equipment prepares to break RACM during an AACM experiment. (EPA photo)


               NESHAP Requires Alternatives to Be At Least Equivalent. Under the
                NESHAP at 40 CFR § 61.12 (d)(1), alternative methods must
                demonstrate at least equivalent emissions reduction as the current
                asbestos NESHAP method. That is, the alternative method must not emit
                more asbestos than the current method where trained technicians remove
                RACM intact by hand (not the imminent collapse provision). In this
                report, we refer to this issue as “NESHAP equivalency.” Alternatives


14-P-0359                                                                                            2
                   must also undergo public notice and comment prior to Administrator
                   approval.

Alternative Asbestos Control Method Research
            The EPA conducted the AACM and Fort Worth Method research from 1999
            until the work on the effort was terminated in 2011. The three demolitions
            occurred over a few days each in 2006 and 2007.

            Fort Worth Method Proposed to EPA

            In 1999, the city of Fort Worth proposed the Fort Worth Method for the
            Project XL program. Initiated in 1995, Project XL was a national EPA initiative
            to develop and test innovative approaches to achieve better and more cost-
            effective environmental and public health protection. Some EPA offices—
            including the Office of Research and Development’s (ORD) National Center for
            Environmental Assessment, the OAR’s Office of Air Quality Planning Standards
            (OAQPS), the Office of Enforcement Compliance Assurance (OECA),
            Regions 5 and 6, the Office of General Counsel, the OIG, and the Office of
            Policy—raised concerns about the Fort Worth Method’s possible impacts on
            human health and the EPA’s lack of data for determining NESHAP equivalency.

            Specific concerns included:

                  The lack of scientific basis to support the use of ambient air monitoring
                   to protect public health or demonstrate NESHAP equivalency.

                  Compliance with or obtaining waivers to OSHA requirements.

                  The integration of team comments into the experiment’s design.

                  The persistence of fibers from fugitive emissions in the environment.

                  Whether the proposed method could provide an equivalent or better
                   emission reduction solution.

            Fort Worth Method Removed from Project XL

            In September 2003, Region 6 and the city of Fort Worth decided to remove the
            Fort Worth Method from Project XL to “expedite the approval process.” Both
            the city of Fort Worth and Region 6 approached OECA to request enforcement
            discretion. However, unresolved issues remained. For example, OAQPS staff
            still questioned how to assess NESHAP equivalency and whether the
            experiment’s design would provide the data needed for an equivalency
            determination.




14-P-0359                                                                                      3
                   OIG Report on the Fort Worth Method

                   Three months later, EPA OIG Report No. 2004-P-00002, Significant
                   Modifications Needed to Ensure Success of Fort Worth Demolition Method,
                   issued December 19, 2003,2 cited national policy implications and the precedent-
                   setting nature of the project and provided key recommendations. These
                   recommendations included identifying equivalent asbestos emissions to ensure a
                   representative comparison to the Asbestos NESHAP, developing an agreement to
                   adequately address key project criteria such as determining what constitutes
                   superior environmental performance, testing within the scope of applicable laws
                   and regulations, and ensuring adequate stakeholder involvement and
                   consideration of concerns. The OIG further recommended the agency design the
                   project to reach complete, reliable and valid conclusions, and specify human-
                   health protections that ensure protection at least equivalent as the asbestos
                   NESHAP method. The OIG also recommended that the agency develop a single
                   guidance document for proposals under the agency’s innovation strategy which
                   provides fundamental criteria and is published in the Federal Register to ensure
                   national policy decisions are based on sound science. This guidance includes
                   considering expertise within the agency, assessing the technical merits and
                   enforceability of proposed projects, and requiring peer reviews of proposals with
                   national policy implications.

                   In April 2004, as part of the response to the OIG’s recommendations, Region 6
                   (on behalf of ORD, OAR, OECA, and the Office of Policy Economics and
                   Innovation within the Office of Policy) informed the OIG of the decision not to
                   continue the Fort Worth Method under the Project XL process. Further, on
                   July 22, 2004, the EPA announced that the Fort Worth Method would be tested
                   someplace other than the city of Fort Worth, Texas.

                   Region 6 and NRMRL Rename the Experiments

                   The decision to remove the Fort Worth Method from Project XL was followed
                   by another decision. Region 6 and the ORD’s National Risk Management
                   Research Laboratory (NRMRL) continued the experiments, renaming the effort
                   the AACM and using amended water instead of the fire hydrant water used in the
                   Fort Worth Method. The NRMRL refined and implemented technical aspects of
                   the experiments, while Region 6 coordinated the effort among offices. For
                   example, Region 6 obtained OECA assurances that OECA would not take
                   enforcement action against the EPA or contractor personnel for asbestos
                   NESHAP violations during the experiments. The research goal of Region 6 and
                   the NRMRL was to determine whether the AACM could be an alternative
                   demolition method to the current asbestos NESHAP procedure and lead to a
                   regulatory change.



2
    http://www.epa.gov/oig/reports/2003/20031219-2004-p-00002.pdf


14-P-0359                                                                                            4
            The NRMRL’s AACM research effort consisted of three demolition experiments
            or tests, wherein asbestos-containing buildings were demolished using the
            AACM approach. The AACM 1 experiment was conducted with on-site support
            from the Fort Chaffee Redevelopment Authority and consisted of demolishing
            two nearly identical 1940s-era buildings in late April and early May 2006 at Fort
            Smith, Arkansas. The AACM 2 demolition experiment occurred on July 28,
            2007, on a two-story, World War II-era building at Fort Chaffee, Arkansas. The
            AACM 3 demolition experiment was a joint effort with the city of Fort Worth,
            Texas, at the former Oak Hollow Apartments on December 17, 2007.

            AACM 1 Final Report Completed

            The AACM 1 project plan was peer reviewed in February 2006 and the AACM 1
            draft report on the results of the experiment was peer reviewed in June 2007. The
            EPA published the peer-review comments in August 2007, and the agency’s
            responses in November 2007. In October 2008, the NRMRL published the final
            report for the AACM 1 demolition experiment. The report was revised in
            December 2009 to correct an error made in the report.

            AACM 2 and AACM 3 Final Reports Were Not Completed

            The NRMRL prepared and submitted the draft AACM 2 and AACM 3 reports
            for peer review in July 2008, and published the peer-review report and the EPA’s
            response to comments in October 2009. Further, on December 25, 2008, the
            NRMRL prepared another draft report comparing the AACM to the asbestos
            NESHAP method, but this report was not peer reviewed or published. The
            NRMRL did not complete the final reports for the AACM 2 or the AACM 3
            experiments.

            ORD Cancels Experiments

            On July 29, 2011, the ORD Assistant Administrator, based on a request from the
            ORD Deputy Assistant Administrator, cancelled the AACM research effort
            citing technical problems and a desire to use ORD resources to provide support
            to higher-priority research. The EPA took action to clarify the status of the
            AACM research by updating 17 pages on its Science Inventory website, noting
            that “The AACM remains unapproved and should not be used.”

Scope and Methodology

            We conducted our performance audit from March 2012 through May 2014 in
            accordance with generally accepted government auditing standards. Those
            standards require that we plan and perform the audit to obtain sufficient,
            appropriate evidence to provide a reasonable basis for our findings and
            conclusions based on our audit objectives. We believe that the evidence obtained
            provides a reasonable basis for our findings and conclusions based on our audit
            objectives.


14-P-0359                                                                                  5
            Our evaluation scope covered the AACM research from 2004 through 2011,
            including the experiments that took place in 2006 and 2007. We reviewed past
            and current EPA regulations, policies, procedures and guidance to identify
            processes, controls and expectations for coordination and research design. We
            reviewed documents from 1999 through 2004 for the Fort Worth Method
            experiments to understand the origin of the AACM experiments. We analyzed
            internal and external comments and staff correspondence gathered from the 2004
            Fort Worth Method, and 2010 AACM Freedom of Information Act requests. We
            also interviewed current and former EPA personnel from the Office of Policy,
            OECA, OAR, ORD, the Office of General Counsel, the Office of Solid Waste
            and Emergency Response, and Region 6.

            We did not assess the technical design, laboratory results or scientific analysis of
            the AACM experiments. We limited our review to management controls in place
            during the AACM experiments. When brought to our attention, we incorporated
            policy and procedure changes implemented since the AACM experiments.
            However, this evaluation did not assess the effectiveness of the newer policies
            and procedures.

Prior Evaluation and Audit Coverage
            EPA OIG Report No. 2004-P-00002, Significant Modifications Needed to
            Ensure Success of Fort Worth Demolition Method, December 19, 2003:
            Having already summarized relevant recommendations from this report, we will
            not discuss the report further here.

            Government Accountability Office Report No. GAO-06-669, EPA Should
            Improve the Management of Its Air Toxics Program, June 2006: The report
            discussed the need to improve the Clean Air Act air toxics program and stated
            that one of the primary challenges in complying with the requirements was
            insufficient resources to meet the large number of requirements in the specified
            timeframes.

            EPA OIG Report No. 09-P-0232, EPA’s Office of Research and Development
            Could Better Use the Federal Managers’ Financial Integrity Act to Improve
            Operations, September 15, 2009: The OIG recommended that ORD
            management assess program risk and improve internal controls over research
            programs.

            EPA OIG Report No. 11-P-0333, Office of Research and Development Needs
            to Improve Its Method of Measuring Administrative Savings, July 14, 2011:
            The OIG reported that ORD does not track personnel costs by individual
            research project. Specifically, interviews with ORD’s National Program
            Directors that lead development of ORD’s multi-year plans cited difficulties in
            managing research programs, such as limited access to information on funding
            spent against the budget and staff time charges to research programs.



14-P-0359                                                                                      6
            EPA OIG Report No. 12-5-0125, Early Warning Report, Use of Unapproved
            Asbestos Demolition Methods May Threaten Public Health, December 14,
            2011: During our initial research we found that unapproved methods of asbestos
            demolition were being used or considered at multiple sites. We also found that
            unprotected workers adjacent to the restricted areas, and members of the public
            in the vicinity of the AACM experiment sites, may have been exposed to
            asbestos. The early warning report identified six issues requiring the EPA
            Administrator’s immediate attention. The EPA agreed with our report. As part of
            its response to our report, the EPA issued letters in April 2013 to current and
            former agency employees, state and local employees, contractors, and members
            of the public, advising them of their potential exposure to asbestos as a result of
            the AACM experiments. All corrective actions are certified complete by the
            Deputy Administrator.

      Responsible Offices
            The offices responsible for implementing the audit recommendations included in
            this report are the Office of the Deputy Administrator; OECA; ORD and its
            National Risk Management Research Laboratory; and OAR’s OAQPS.




14-P-0359                                                                                    7
                                   Chapter 2
     EPA’s Use of Enforcement Discretion to Continue
             the Experiments Increased Risk
            The EPA had three methods that it could use to pursue changes to the asbestos
            NESHAP. However, on April 20, 2004, the EPA chose to use its enforcement
            discretion, which would excuse violations of environmental laws and is not
            designed as a way to pursue regulatory change. Enforcement discretion is not
            part of the NESHAP provision for rule changes, and does not have the strong
            research control mechanisms of other options, such as obtaining stakeholder
            consensus or addressing project shortcomings. The AACM experiments
            proceeded under enforcement discretion, as requested by Region 6, because a
            former OECA Assistant Administrator and a former Acting OECA Assistant
            Administrator and their staff did not follow OECA’s enforcement discretion
            policy. The use of enforcement discretion allowed the experiments to continue,
            and gave testers immunity from certain violations of environmental laws during
            testing. Enforcement discretion increased the risks to the project as key issues,
            such as NESHAP equivalency, remained unresolved.

Available Methods for Conducting the AACM Project
            The EPA had three mechanisms that would have forced stronger internal controls
            over the AACM research had they been followed throughout the research. These
            included Project XL, the Action Development Process (ADP), and NESHAP’s
            approval process for alternative emission control methods under 40 CFR §
            61.12(d). We address these three below.

            Project XL

            The Project XL innovation program was a national pilot program announced in
            the Federal Register (60 FR 27282) in May 1995. The EPA states that it has
            since been eliminated and stopped accepting new projects for consideration.
            Project XL allowed for the testing of alternative methods when all involved
            parties (i.e., the EPA, project proponents, and state or tribal environmental
            agencies) negotiate and approve a Final Project Agreement. The EPA’s Project
            XL program encouraged partnership and innovation, but required parties to reach
            concurrence that a new method achieves superior environmental performance
            before the parties sign a Final Project Agreement to move forward. From 1999
            through 2003, Region 6 and the Office of Policy were unable to obtain
            agreement from EPA offices about the efficacy of the Fort Worth Method.
            Region 6 and the city of Fort Worth eventually removed the Fort Worth Method
            from Project XL to expedite the approval process for the phase 2 demolitions.




14-P-0359                                                                                   8
                   The EPA could have decided to continue the research effort within the Project
                   XL process. The main internal control in this process is that the parties must
                   reach consensus that the proposed alternative method will have superior
                   environmental results to those achieved by current environmental regulation. In
                   the case of the Fort Worth Method, efforts to achieve consensus within the EPA
                   failed and a Final Project Agreement was never signed. The decision to take the
                   Fort Worth Method out of the Project XL process also removed the Office of
                   Policy as the project’s facilitator. This decision placed responsibility on Region 6
                   and the NRMRL to administer a work group that had already worked for several
                   years without reaching agreement.

                   The Action Development Process

                   The ADP is the EPA’s process for rule development. The use of the ADP is not
                   mandatory, but its emphasis on early involvement by management; prompt
                   elevation of issues; and consideration of all scientific, economic, and policy
                   issues provides a framework and means of management control, oversight, and
                   internal review and approval. In 2007, Region 6 and the OAR entered an AACM
                   proposal into the ADP, but requested the proposal’s removal on January 15,
                   2008. EPA’s Regulatory Information Notice data for 2060-A064 states the
                   following reason for withdrawing the regulatory action: “However, we
                   determined that initiating this action was premature because we had not
                   completed testing the AACM. Therefore, we have withdrawn this action until all
                   testing and evaluation of the test results, including peer review, are complete.”

                   The ADP process was designed in the 1990s to meet the EPA’s regulatory
                   obligations under the Administrative Procedures Act and Office of Management
                   and Budget Circular A-4.3 The EPA developed the ADP process to ensure that
                   agency rules and regulations are of consistently high quality, involve senior
                   managers early in the development process, are supported with strong analysis,
                   and are developed via an open process. The ADP tasks intra-agency work group
                   members to identify and ensure that all significant issues and options are
                   addressed during rule-making. The main internal control of the ADP is the
                   requirement to elevate unresolved issues to EPA management for resolution.

                   NESHAP Alternative Method Approval

                   The NESHAP regulation at 40 CFR § 61.12 (d) provides for the submission of an
                   alternative emission control method to the EPA for review and approval. The
                   OAR oversees the NESHAP and after review may recommend a proposed
                   alternative to the Administrator. The NESHAP regulation allows anyone to submit
                   an alternative emission control method to the EPA for review and approval. The
                   EPA must provide for public notice and comment before the Administrator can
                   approve an alternative method. Therefore, the EPA must adequately address or
                   resolve all public comments or issues prior to the Administrator approving the

3
    Office of Management and Budget Circular A-4, Regulatory Analysis, dated September 17, 2003.


14-P-0359                                                                                            9
            alternative emission control method. Since the OAR administers the NESHAP, the
            OAR must also concur with the submission, and review and recommend NESHAP
            alternatives to the Administrator. The NESHAP process would have forced EPA
            to follow stronger internal controls for the AACM research if that mechanism had
            been selected. Region 6 and the ORD did not apply for approval for an alternative
            demolition method under 40 CFR § 61.12 (d).

OECA Provided Protection From EPA Enforcement in Violation of Its
Own Policy
            The EPA has discretionary authority to allow rule violations in certain
            circumstances. The OECA’s exercise of discretionary authority allowed the
            alternative asbestos demolition experiments to continue outside of a controlled
            laboratory setting, without the threat of enforcement for violating environmental
            laws. This authority is solely exercised by the Assistant Administrator for
            OECA. When the EPA exercises this discretionary authority, the Assistant
            Administrator for OECA issues a No Action Assurance (NAA) letter that
            describes the use of enforcement discretion. The NAA letter is a commitment
            from the EPA that the violation at issue will not be prosecuted. The main internal
            control associated with the enforcement discretion approach lies in the OECA
            review that ensures no other research method is available. Region 6 requested
            and obtained NAA letters from the OECA to expedite testing.

            The AACM experiments proceeded under enforcement discretion, as requested
            by Region 6, because a former OECA Assistant Administrator and an Acting
            OECA Assistant Administrator and their staff did not follow OECA’s
            enforcement discretion process. The Region 6 Administrator requested NAA
            letters from OECA for the AACM 1 and AACM 3 studies in August 2005 and
            November 2007, respectively. One former OECA Acting Assistant
            Administrator granted the NAA letter for the AACM 1 on August 10, 2005.
            Another former OECA Assistant Administrator granted the NAA letter for the
            AACM 3 on December 4, 2007. The OECA management also provided a
            tentative NAA letter for the second phase of the Fort Worth Method on
            January 26, 2004. Region 6 did not request an NAA letter from the OECA for
            the AACM 2 experiment in July 2007. Instead, the ORD obtained a declaration
            from the city of Fort Smith, Arkansas, which said the asbestos-containing
            building was structurally unsound.

            No Justification for NAA Approval

            In 1984, the OECA issued an enforcement discretion policy discussing steps to
            follow for the issuance of NAA letters. The NAA letters provide for temporary
            suspension of enforcement against specific environmental regulations in
            “extremely unusual cases.” However, according to the policy, the OECA should
            not issue enforcement discretion to conduct research or other activities if other
            mechanisms exist. As discussed previously, at least three other mechanisms
            could have been used to move forward with the experiments.


14-P-0359                                                                                  10
                    The OECA’s enforcement discretion policy also requires all instances of
                    enforcement discretion to have supporting documentation that provides an
                    explanation of the reasons justifying issuance of the NAA letter. The OECA does
                    not have supporting documentation that provides justification for the issuance of
                    NAA letters for either the AACM 1 or the AACM 3.
                    NAA Conditions Unverified and Unaddressed

                    The NAA letters for the AACM 1 and AACM 3 identified conditions for
                    Region 6 and the NRMRL to meet prior to and following the experiments.
                    However, we were unable to identify evidence that the OECA staff verified
                    compliance with the stated conditions. For example, the NAA letter for the
                    AACM 1 stated that the protocol should include numerous provisions to ensure
                    the protection of public health and the environment; and that after peer review,
                    the protocol should be refined to ensure that it is, in fact, protective. We were
                    unable to identify any evidence that the OECA verified that public health
                    provisions had been added to the protocol. For example, the peers questioned the
                    AACM 1’s compliance with OSHA’s worker excursion sampling regulations and
                    the adequacy of emission controls, and suggested the inclusion of additional
                    emission measurements to better define the levels of asbestos emissions and
                    identify possible public exposures. Our review of the AACM 1 final report found
                    no mention of excursion sampling being used.

                    The NAA letter for the AACM 3 included the condition that the AACM 3 quality
                    assurance project plan incorporates recommendations from the AACM 1 peer
                    reviews to ensure that the experiment was protective of public health and the
                    environment. We have no evidence that the OECA verified that this precondition
                    was met. Our analysis of peer-review comments showed many unresolved concerns
                    regarding public health and the environment that were never addressed by the ORD
                    during the 12 years of the effort. When asked why the OECA granted the NAAs
                    without ensuring conditions were met, the then-OECA Associate Director, Office of
                    Civil Enforcement, Air Enforcement Division,4 said they typically give deference to
                    sister offices, and that they were relying on the NRMRL’s demonstrations and
                    statements that AACM experiments would be protective.

EPA’s Enforcement Discretion Left Key Issues Unresolved
                    At least three methods—Project XL, the ADP and the NESHAP—have controls
                    in place that would have required that significant issues identified during the
                    AACM experiments be resolved before receiving approval to conduct the
                    experiments. Although the NAA letters that the OECA issued for AACM
                    experiments included preconditions for approval, the letters did not mention the
                    existing internal issues with the experiments. Further, there is no evidence that




4
    This individual is currently the Deputy Director of the Office of Civil Enforcement.


14-P-0359                                                                                          11
            the OECA verified the resolution of the preconditions and internal issues, or
            obtained concurrence from the offices that were impacted.

            The Key Issue Was Equivalent Emissions

            For the AACM research, the main unresolved issue was how to demonstrate
            equivalent emissions to the asbestos NESHAP. During the method development
            in 1999, Project XL work group members identified the need to determine
            equivalency as a major issue. The EPA offices involved—including Region 6,
            ORD, OECA, OAR, and the Office of Policy Economics and Innovation—
            left the issue of equivalency unresolved while allowing the research on the
            experiments to go forward for 12 years. Consequently, the EPA could not use the
            resulting data to propose NESHAP amendments, because known NESHAP
            equivalency problems with Project XL and AACM experiments remained
            unaddressed.

            Only the OAR, as the administrator of the NESHAP, can clarify what constitutes
            equivalent asbestos emissions. Without this definition, the ORD could not
            develop an experimental design that met the OAR’s needs. However, the steps to
            obtain a definition from the OAR and information needed are not clear. The
            NESHAP regulation provides limited details on what information should
            accompany an application, and the OAR has no guidance or procedures for
            submissions. Due to the lack of resolution on how to demonstrate equivalent
            emissions to the asbestos NESHAP, and the lack of guidance on the procedures
            for application submissions, the EPA could not use the resulting data to propose
            NESHAP amendments.

Conclusions
            The EPA’s selection of enforcement discretion enabled the ORD and Region 6 to
            continue with the AACM experiments without the benefit of leadership from the
            Office of Policy, and without obtaining consensus among the other stakeholders.
            Removing the AACM tests from processes such as Project XL and the ADP
            eliminated the requirement for stakeholders’ consensus. This choice eliminated
            critical internal controls in the research process because stakeholders had
            identified significant impediments. By not addressing stakeholder-identified
            impediments, Region 6 and the ORD continued down a path that would not
            achieve the rule-making goal. Had the EPA continued with Project XL, the ADP,
            or initiated the NESHAP process, the AACM research would have had stronger
            internal controls.

            The OECA’s decision to grant enforcement discretion, contrary to policy and
            without verifying that the AACM complied with conditions for granting
            enforcement discretion, demonstrates a breakdown in the OECA’s management
            controls. If the OECA management controls had been followed, the office would
            have known that enforcement discretion was not appropriate for AACM
            experiments. Further, the lack of an OAR equivalent emissions target to measure


14-P-0359                                                                                   12
            the effectiveness of AACM research severely limited the chance for the AACM
            to be successful. Consequently, the AACM experiments could have been
            modified or terminated sooner. The EPA’s current policies and procedures do not
            appear to address these issues and would not prevent a reoccurrence on other
            research projects.

Recommendations
            The Deputy Administrator should:

               1. Require that all nationally significant research, and research conducted to
                  support a rule-making, enter and follow a process that includes oversight
                  and input from agency senior leadership; those familiar with the rule-
                  making process; and individuals familiar with applicable and relevant
                  legal and policy requirements.
            The Assistant Administrator for Enforcement and Compliance Assurance should:

               2. Require all NAA letters to state that a review was performed to identify
                  methods other than enforcement discretion and that no other methods
                  were found.

               3. Provide notice to all EPA offices that an NAA letter is being proposed
                  and require documented feedback from all offices.

               4. Verify information provided to support the NAA letter request.

               5. Document compliance with the provisions of the NAA letter (both
                  pre- and post-issuance).

            The Assistant Administrator for Air and Radiation should:

               6. Establish a process for the submission, review and approval of alternative
                  NESHAP emission control methods.

Agency Response to Draft Report and OIG Evaluation
            We received a response to the draft report from the Deputy Administrator along
            with technical comments from OAR, ORD, and OECA. Appendices A and B
            contain the agency’s comments on the recommendations and their technical
            comments, respectively, along with the OIG’s detailed responses.

            The EPA agreed with our recommendations and provided corrective actions that
            are sufficient to meet the intent of the OIG recommendations.
            Recommendations 1 through 6 are resolved. Recommendations 1 through 5 are
            closed with completion dates of October 2012 and August 2014, while
            Recommendation 6 is open with corrective action pending.


14-P-0359                                                                                  13
                                   Chapter 3
  Management Practices at EPA’s Office of Research
 and Development Were Ineffective for AACM Research

            The ORD’s management allowed the AACM experiments to bypass agency
            controls designed to ensure that experiments would be relevant, conducted
            appropriately, and useful to the EPA and the public. Actions taken by the ORD
            undermined the AACM research and led to the termination of the AACM
            research in 2011. The ORD’s NRMRL management and staff:

                  Disregarded agency guidance and procedures by not entering the AACM
                   experiments into the ORD’s research planning process.

                  Did not ensure compliance with NESHAP equivalency.

                  Did not address significant comments and concerns as detailed in this
                   report.

            As a result, the AACM experiments provided no benefit. The NRMRL did not:

                  Comply with health and safety requirements, and a lack of consideration
                   of environmental impacts led to the potential exposure of workers and the
                   public.

                  Ensure quality and accuracy in the collection of evidence regarding costs,
                   which led to the publication of the AACM 1 report with unsupported
                   conclusions.

                  Provide oversight of the AACM experiments, which resulted in the use of
                   staff time and agency resources that might have been applied to other
                   research.

ORD Did Not Provide Effective Oversight of AACM Research
            The ORD’s NRMRL did not provide effective oversight of the AACM research
            when it did not enter the AACM experiments into its research planning process,
            did not request a definition of equivalency from OAQPS to ensure compliance
            with NESHAP equivalency, and did not address stakeholder and reviewer
            concerns regarding the experiment design and results. The NRMRL’s oversight
            of these key areas would have helped to ensure that the tests were properly
            conducted and that relevant data was collected.




14-P-0359                                                                                  14
                 Research Planning Process

                 The ORD’s research planning process develops multiyear plans to outline its
                 program goals, outcomes and key products. These plans are used to convey the
                 overall research direction for each of its six research programs’ vision, priorities
                 and connection to the EPA strategic plan. On an annual basis, each of the
                 research programs develops research products and outputs to be delivered based
                 on appropriated funding levels. This higher level of planning strengthens the
                 ORD’s research planning process to be, among other things, more responsive to
                 the EPA’s mission, timely and more transparent.

                 The ORD’s research is typically entered into these plans, but labs can conduct
                 “ad hoc” research if the lab director believes that research falls within broader
                 goals. Although AACM experiments were responsive to a need identified by
                 Region 6, the lack of entry into the ORD’s planning process meant that the
                 AACM experiments bypassed program office strategic planning and
                 management oversight. This decision by ORD management affected the quality,
                 support and overall success of the project.

                 Research Funding

                 Entering the AACM research into the ORD’s research planning process could
                 have addressed funding issues. On an annual basis, each research program
                 develops research products and outputs based on appropriated funding levels.
                 In the case of the AACM research, despite the lack of entry into the ORD’s
                 planning process, the AACM work group obtained funding from various offices
                 and the Regional Geographic Initiative.5 The NRMRL reported that it spent at
                 least $2.29 million of EPA funds on the AACM experiments from 2004 through
                 2009. This amount included nearly $2.2 million in contractor costs and more
                 than $140,000 in travel expenses. However, these amounts do not capture the full
                 research cost.6 If the ORD had a method for capturing these contributions at the
                 project level, that method would have enabled the EPA to account for and report
                 the total AACM costs.

                 AACM Funding Inconsistencies

                 Despite the availability of research funds, the AACM research still experienced
                 inconsistent funding that may have affected the quality of the experiments by
                 limiting the types of activities the ORD could undertake. Specifically, to reduce
                 costs, the NRMRL altered the AACM research design by foregoing the side-by-
                 side comparison test design used in the AACM 1, and instead conducted a

5
  The EPA established the Regional Geographic Initiative in 1994 to support the EPA’s regional offices’ place-
based approaches to environmental problems unique to the regions and unaddressed by existing national programs.
Initiative funding ranged from $8.4 million to $12.7 million per year until funding was eliminated by Congress in
fiscal year 2008 due to “continued concerns about the scope and purpose of the program.”
6
  The ORD does not collect data to show portions paid by other entities, such as contributions from the Fort
Chaffee Redevelopment Authority in Arkansas, and the city of Fort Worth, Texas.


14-P-0359                                                                                                     15
            single-building demolition for the AACM 2 and the AACM 3. This choice meant
            that comparative data was not available to defend the NRMRL’s hypothesis that
            the AACM is equivalent to the current NESHAP method.

            Accounting for Staff Costs

            The NRMRL cannot fully account for the cost of the AACM experiments
            because the NRMRL does not track the number of staff hours spent on projects.
            This missing accounting control leaves the NRMRL unable to calculate the full
            cost of any research project and limits the agency’s oversight of the NRMRL’s
            accountability for resources. For example, the NRMRL reported that from 2005
            through 2012, a total of 11 staff worked on the AACM experiments at least part
            time. These staff represented almost nine full-time equivalents, or approximately
            $1.2 million dollars. However, these 11 NRMRL staff may represent those with
            the greatest contribution to the AACM effort. Our review found that the Fort
            Worth Method and AACM experiments involved more than 200 EPA staff in
            some way.

            NRMRL Did Not Request a NESHAP Equivalency Definition

            The NRMRL did not request a definition of NESHAP equivalency from the
            OAR, which is the program office responsible for recommending and processing
            the approval of an alternate method. The NRMRL program manager for the
            AACM, now retired, told us that he created his own measure of equivalency
            when the OAR did not agree with the plans. He also noted that he was not a
            regulator and that the research team may not have known enough about
            equivalency and rule-making requirements. Consequently, the NRMRL executed
            the AACM experiments with no means to assess NESHAP equivalency. This
            action may have put the health of people near the experiment at risk and does not
            support an effective use of public funds and resources.

            Project XL Issues Remained Unresolved

            The NRMRL also failed to address specific stakeholder issues associated with
            the experiments. The ORD’s research process encourages collaboration with
            program offices prior to and during research to improve the quality and
            usefulness of ORD products. Peer reviewers and work group members
            repeatedly raised the same issues over the course of the Fort Worth Method.
            A 2004 facilitated meeting of the Fort Worth Method work group (comprised of
            many of the same staff as the AACM work group) identified and documented
            32 internal issues with the Fort Worth Method. We found that peer reviewers in
            2007 again raised almost identical issues for the AACM 1 experiment.

            Table 1 shows some of the similar concerns identified in 2004 and 2007. This
            comparison indicates that the ORD did not require the NRMRL to resolve issues
            the work group and peer reviewers raised during the Fort Worth Method version
            of the method as a condition for commencing AACM experiments. The decision


14-P-0359                                                                                 16
                   not to resolve these issues negatively affected the experiments because these
                   issues go to the heart of experimental design as related to safety, compliance
                   with the law, and the ability of the experiments to decide the merits of the
                   proposed alternative method.

                   Table 1: Comparison of experimental design concerns from the Fort Worth
                   Method (2004) and the AACM (2007)
                     Fort Worth Method facilitated meeting           AACM 1 report’s peer-review
                     comments (2004)                                 comments (2007)
                     There are questions about the variability       “Air sampling results used to compare
                     and “effectiveness of ambient air               the two methods were inconclusive.”
                     monitoring” to measure asbestos release.
                     Lack of details about how the “Fort Worth       Did not “properly cite the appropriate
                     Method satisfied OSHA requirements,”            regulations” to show compliance with
                     including why proposals for worker              OSHA rules, including the type of
                     “exposure-based monitoring” were not in         “respiratory protection and protective
                     the plan.                                       clothing” used by workers.
                     There is a “lack of storm water run/on          There is a lack of soil samples taken
                     run/off and soil infiltration controls.”        “pre- and post” NESHAP abatement,
                                                                     lack of details on how to collect the
                                                                     amended wastewater, and whether
                                                                     Clean Water Act regulations apply to
                                                                     asbestos.
                     There are “no data to verify cost savings.”     “Understatement of AACM costs” and
                                                                     “overstatement of NESHAP costs.”
                   Source: OIG review of EPA-provided documents.


NRMRL Did Not Adequately Address Health and Environmental
Issues in AACM Experiments
                   The NRMRL’s experimental design for the AACM did not adequately address
                   health and safety issues for workers and the public, or consider potential
                   environmental impacts. As late as 2010, there were 12 outstanding health and
                   safety questions identified by the NRMRL’s Safety, Health and Environmental
                   Management Office and other EPA offices. The NRMRL management and staff
                   commented to the ORD Deputy Assistant Administrator for Science that health
                   and safety questions were outside the scope of the project. There were
                   unresolved questions about the work area, level of worker respiratory protection,
                   and the addition of weight to a building in imminent danger of collapse.

                   In EPA letters written to people potentially exposed to asbestos as a result of the
                   AACM experiments in 2013,7 the NRMRL admitted that it was unable to
                   produce data required to quantify asbestos exposure levels associated with the
                   AACM experiments. During our review, the NRMRL reported that it had

7
    The letters are in response to our December 2011 Early Warning Report (Report No. 12-P-0125) previously cited.


14-P-0359                                                                                                     17
                  updated its procedures for the review and approval of health and safety plans,
                  and hired additional staff. However, there are still no procedures in ORD
                  guidance or policy specifically requiring research teams to identify job-specific
                  regulatory requirements to ensure compliance and proper contractor oversight.

                  The NRMRL officials also cannot verify the completion of the environmental
                  review and Environmental Impact Statement (EIS) for the AACM, as required by
                  the ORD NEPA policy, and 40 CFR Part 6.8 The environmental review ensures
                  federal actions, including research experiments, consider the environmental
                  effects on test environments. A former NRMRL AACM program manager, who
                  is now retired, told us that the NRMRL left employees to their own resolve with
                  respect to NEPA requirements, and that NRMRL contractors typically handled
                  NEPA requirements and the EIS. In fact, the former program manager noted that
                  his people did not understand NEPA.

                  NESHAP Violations Occurred Outside the Statute Of Limitations

                  Region 6 did not request an NAA letter from the OECA for the AACM 2
                  experiment in July 2007. Instead, the NRMRL obtained a declaration from the
                  city of Fort Smith, Arkansas, which stated that the asbestos-containing building
                  scheduled for demolition was structurally unsound. This declaration allowed the
                  NRMRL to demolish the building under the NESHAP’s imminent collapse
                  provision. However, the NRMRL then added more than 3 tons of Transite®, an
                  asbestos-cement product, to the building to increase the building’s asbestos
                  levels. Without an NAA letter from the OECA, all environmental laws would
                  have applied to the AACM 2 demolition. The purpose of the NESHAP is to
                  reduce emissions and adding 3 tons of Transite® increases emissions. Therefore,
                  this is a NESHAP violation. Further, the addition of more than 3 tons of
                  Transite®, increases the weight on the unsound structure. Therefore the
                  imminent danger of collapse designation does not appear to be supported.
                  According to 42 U.S. Code (U.S.C.) § 7413, potential penalties for NESHAP
                  violations include written warnings, fines, and in some instances jail time. The
                  OECA needed to determine the applicability of any penalty in this instance.
                  OECA responded that the statute of limitations had expired on this issue. Upon
                  further examination of this issue, we agree.




8
  We believe the most applicable subsection in the EIS regulation is Title 40 CFR §6.207(a)(3)(vii), which states
that an EIS is normally required when “[t]he proposed action involves uncertain environmental effects or highly
unique environmental risks that are likely to be significant.”




14-P-0359                                                                                                       18
            Lack of Pre-discharge Testing Enhanced Possibility of Clean Water
            Act and CERCLA 103 Violations

            The EPA’s National Recommended Water Quality Criteria, which EPA issues
            pursuant to Section 304(a) of the Clean Water Act (CWA), have limits on the
            discharge of certain contaminants into the waters of the United States. For
            asbestos, the maximum contaminant level developed under the Safe Drinking
            Water Act is no more than 7 million fibers (longer than 10 micrometers) per liter.
            The Comprehensive Environmental Response, Compensation, and Liability Act
            (CERCLA), § 103 [42 U.S.C. § 9603], requires the reporting of hazardous
            substance spills or releases beyond a certain quantity into the environment.
            Further, the law requires the individual in charge of a facility to immediately
            notify the National Response Center of a hazardous substance release that is
            equal to or in excess of its reportable quantity. For asbestos, the reportable
            quantity is 1 pound of asbestos fibers released in a 24-hour period. However, the
            AACM project team was not aware of the legal limit on asbestos discharge.
            During the peer review of the AACM 1 report, the now-retired NRMRL program
            manager said he believed that no regulations existed on the discharge of asbestos
            into water.

            Prior to filtration, the runoff water from the AACM 1 and AACM 2 experiments
            significantly exceeded CWA discharge limits and CERCLA reportable quantity
            for asbestos. For example, the AACM 1 report lists asbestos concentrations in
            the wastewater as 30.4 million structures/liter, and the AACM 2 report listed an
            average asbestos waste water concentration of 1,240 million structures/liter. The
            NRMRL did filter the runoff water, but did not test the filtered water to confirm
            that the water complied with CWA and CERCLA requirements prior to
            discharge. Therefore, the NRMRL has no evidence that the wastewater
            discharged from the AACM 1 or AACM 2 complied with the CWA and
            CERCLA. The experiments may have discharged potentially noncompliant
            wastewater into the public sewer.

            Cost Conclusions of the AACM 1 Report Were Unsupported

            The NRMRL published the AACM 1 report and concluded that the AACM
            method is more cost effective than the current NESHAP method. However, peer-
            review comments and our attempts to verify cost figures found that the
            NRMRL’s conclusions about costs are unsupported and unverifiable. Errors
            related to costs undermine one of the AACM experiment’s primary
            objectives—to assess whether the AACM is more cost effective than the
            NESHAP method when considering all costs.

            The AACM 1 report stated that the cost of the NESHAP method was twice the
            cost of the AACM method. However, peer reviewers and the public raised
            questions of bias and provided supporting data suggesting the underreporting of
            the AACM costs and the overreporting of NESHAP method costs. Our review of
            data provided by outside reviewers shows that the NESHAP method was $1,300


14-P-0359                                                                                 19
            less than the AACM method. We also found inaccuracies and a lack of
            documentation to support the AACM 1 report’s cost conclusions. For example,
            we were unable to verify asbestos waste amounts for each building, the cost of
            labor for site mobilization, or verify the time it took to conduct demolitions. The
            cost issues raised by those outside the EPA, in addition to our review, suggest
            that the AACM 1 report’s conclusions about costs are not supportable because
            the EPA did not capture enough quality data to verify actual costs. These errors
            resulted in a published report that leads readers to conclude that the AACM is a
            significantly less costly method.

            AACM 2 and AACM 3 Reports Contained Cost Errors

            Draft reports for the AACM 2 and AACM 3 experiments also included cost
            conclusions that lacked appropriate support. For the AACM 2, there were
            discrepancies with total landfill disposal charges and the number of hours
            worked. The July 14, 2008, AACM 2 draft report approved by the NRMRL
            quality assurance officer stated that the NESHAP method was approximately
            $3,700 cheaper than the AACM. However, these figures were different in the
            July 21, 2008, version sent to peer reviewers. This version showed the AACM
            method as almost equal to the NESHAP, with a difference of about $700, which
            made the AACM slightly less costly.

            The largest change in cost between these versions was an unexplained reduction
            in the AACM disposal cost of about $7,400 from what was approved by the
            quality assurance officer. Interviews with NRMRL staff regarding this
            discrepancy did not identify a cause for this change. The now retired NRMRL
            program manager could not explain how or why cost figures changed. He said
            they worked on the reports for “thousands of hours,” were rushing to get the
            reports out, and took responsibility for any inaccurate information in the draft.

Conclusions
            Ineffective ORD oversight enabled the AACM to be conducted outside of the
            ORD planning and budgeting process, and left the AACM disconnected from the
            EPA’s strategic plan goals. Conducting the AACM outside of the normal
            management control process led to inconsistent funding support and
            experimental design changes that sacrificed comparative demolition data
            between the AACM and NESHAP processes.
            Key decisions on health and safety issues and how to decide equivalency were
            allowed to go unresolved. Specifically, the NRMRL created and implemented a
            plan that missed relevant and important CWA and CERCLA § 103 requirements,
            did not capture costs, potentially exposed workers and the public to unsafe levels
            of asbestos, and may have violated the NESHAP. Consequently, the NRMRL
            could not produce reports to answer the fundamental question of whether the
            proposed alternative is better and less expensive than the NESHAP method.




14-P-0359                                                                                   20
            There are no current policies and procedures that address these issues and that
            would serve to prevent a reoccurrence on other research projects.

Recommendations
            The Assistant Administrator for Research and Development should:

               7. Require the entry of all research into the ORD’s planning process.

               8. Obtain and utilize an automated system to track costs (including
                  full-time-equivalent hours) allocated to each research project.

               9. Capture and record in-kind contributions to research projects (including
                  contributions from outside entities and interoffice entities) in the
                  automated system.

              10. Establish policy and procedures to track, reply to and resolve internal
                  review comments for each research project.

              11. Update research design guidance to include steps that identify rules,
                  regulations and training that applies to each research project, especially
                  work conducted outside of the laboratory.

Agency Response to Draft Report and OIG Evaluation
            We received a response to the draft report from the Deputy Administrator along
            with technical comments from OAR, ORD, and OECA. Appendices A and B
            contain the agency’s comments on recommendations and their technical
            comments, respectively, along with the OIG detailed responses.

            Although the agency stated it agreed with our recommendations, the ORD
            response to Recommendation 8 described its efforts to establish meaningful
            baselines for research projects but did not meet the intent to track costs for each
            research project. The ORD proposed action does not capture the actual costs of
            research, which is the weakness addressed in this report. Therefore,
            Recommendation 8 is unresolved with resolution efforts in progress.
            Recommendation 7 is closed with a completion date of October 2012.
            Recommendations 9, 10 and 11 are resolved and open with corrective actions
            pending.




14-P-0359                                                                                     21
                               Status of Recommendations and
                                 Potential Monetary Benefits

                                                                                                                                POTENTIAL MONETARY
                                                    RECOMMENDATIONS                                                              BENEFITS (in $000s)

                                                                                                                    Planned
    Rec.    Page                                                                                                   Completion   Claimed    Agreed To
    No.      No.                          Subject                          Status1         Action Official            Date      Amount      Amount

     1       13    Require that all nationally significant research, and     C          Deputy Administrator        10/31/12
                   research conducted to support a rule-making, enter
                   and follow a process that includes oversight and
                   input from agency senior leadership; those familiar
                   with the rule-making process; and individuals
                   familiar with applicable and relevant legal and
                   policy requirements.

     2       13    Require all NAA letters to state that a review was        C       Assistant Administrator for    8/30/14
                   performed to identify methods other than                              Enforcement and
                   enforcement discretion and that no other methods                   Compliance Assurance
                   were found.

     3       13    Provide notice to all EPA offices that an NAA letter      C       Assistant Administrator for    8/30/14
                   is being proposed and require documented                              Enforcement and
                   feedback from all offices,                                         Compliance Assurance

     4       13    Verify information provided to support the NAA            C       Assistant Administrator for    8/30/14
                   letter request.                                                       Enforcement and
                                                                                      Compliance Assurance

     5       13    Document compliance with the provisions of the            C       Assistant Administrator for    8/30/14
                   NAA letter (both pre- and post-issuance).                             Enforcement and
                                                                                      Compliance Assurance

     6       13    Establish a process for the submission, review and        O       Assistant Administrator for    3/31/15
                   approval of alternative NESHAP emission control                       Air and Radiation
                   methods.

     7       21    Require the entry of all research into the ORD’s          C       Assistant Administrator for    10/31/12
                   planning process.                                                 Research and Development

     8       21    Obtain and utilize an automated system to track           U       Assistant Administrator for
                   costs (including full-time-equivalent hours)                      Research and Development
                   allocated to each research project.

     9       21    Capture and record in-kind contributions to               O       Assistant Administrator for 11/30/2015
                   research projects (including contributions from                   Research and Development
                   outside entities and interoffice entities) in the
                   automated system

    10       21    Establish policy and procedures to track, reply to        O       Assistant Administrator for    9/30/15
                   and resolve internal review comments for each                     Research and Development
                   research project.

    11       21    Update research design guidance to include steps          O       Assistant Administrator for    9/30/15
                   that identify rules, regulations and training that                Research and Development
                   applies to each research project, especially work
                   conducted outside of the laboratory.


1   O = Recommendation is open with agreed-to corrective actions pending.
    C = Recommendation is closed with all agreed-to actions completed.
    U = Recommendation is unresolved with resolution efforts in progress.




14-P-0359                                                                                                                                      22
                                                                                     Appendix A

Agency Response to Draft Report and OIG Comments
The text of the EPA response along with our analysis is provided below.


MEMORANDUM

SUBJECT: Response to the Office of Inspector General (OIG) Draft Report,
         Project No. OPE-FY12- 0011, dated May 30, 2014

FROM:         Bob Perciasepe, Deputy Administrator

TO:           Arthur A. Elkins, Jr., Inspector General Office of Inspector General


Thank you for the opportunity to respond to the Office of the Inspector General (OIG) draft
report, Project No. OPE-FY12-0011, dated May 30, 2014. The EPA's Office of Research and
Development (ORD) initiated the Alternative Asbestos Control Method (AACM) experiments,
which occurred in 2006 and 2007, in part to respond to the needs of EPA program and regional
offices, as well as external stakeholders. As the report notes, these experiments are no longer
occurring.

An important priority for the EPA is protecting people from exposure to harmful substances
such as asbestos where they live, work, and engage in recreation. Since the experiments were
conducted, the EPA has made significant changes to its research planning process and has taken
many steps to ensure the safety and health of its employees and contractors, as well as the
American people. The EPA continuously strives to improve its research protocols and
processes to achieve the highest possible scientific standards to best protect the American
public and our environment.

Our responses to the report recommendations are below. The EPA is also providing an
attachment containing technical comments on the content of the report. In general, EPA
concurs with the OIG recommendations. However, the mechanisms cited by the OIG, including
the Action Development Process (ADP), the asbestos NESHAP and the use of enforcement
discretion, are not appropriate for providing oversight and planning of research projects. We
request that the OIG reexamine the report's content based upon our comments, including the
description of the relationship between the Agency's research and regulatory activities.

OIG Recommendation 1: Require that all nationally significant research, and research
conducted to support a rule-making, enter and follow a process that includes oversight and
input from agency senior leadership; those familiar with the rule-making process; and
individuals familiar with applicable and relevant legal and policy requirements.

Corrective Action 1: EPA Concurs with this recommendation.


14-P-0359                                                                                    23
EPA's Office of Research and Development (ORD) has made significant changes to the
research planning process. The process requires that all nationally significant research be
reflected. The research planning process includes oversight and input from senior managers
and others familiar with the regulatory statutes and legal and policy requirements.
Throughout the life cycle of research and development, from planning to product delivery,
interactions occur between ORD and its partners at every organizational level, to ensure that
the products are relevant, responsive, and timely in support of EPA's mission.

Corrective Action: Implementation of ORD Planning and Accountability Processes

Planned Completion Date: October 2012.

OIG Recommendation 2: Require all NAA letters to state that a review was performed to
identify methods other than enforcement discretion and that no other methods were found.

Corrective Action 2: These recommendations are no longer applicable. OECA will
formally revise its "Policy Against 'No Action' Assurances" to remove the provision stating
that an NAA may be appropriate to obtain "information for research purposes."

Planned Completion Date: August 30, 2014


OIG Recommendation 3: Provide notice to all EPA offices that an NAA letter is being
proposed and require documented feedback from all offices.

Corrective Action 3: These recommendations are no longer applicable. OECA will
formally revise its "Policy Against 'No Action' Assurances" to remove the provision stating
that an NAA may be appropriate to obtain "information for research purposes."

Planned Completion Date: August 30, 2014

OIG Recommendation 4: Verify information provided to support the NAA letter request.

Corrective Action 4: These recommendations are no longer applicable. OECA will
formally revise its "Policy Against 'No Action' Assurances" to remove the provision stating
that an NAA may be appropriate to obtain "information for research purposes."

Planned Completion Date: August 30, 2014

OIG Recommendation 5: Document compliance with the provisions of the NAA letter (both
pre- and post-issuance).

Corrective Action 5: These recommendations are no longer applicable. OECA will
formally revise its "Policy Against 'No Action' Assurances" to remove the provision stating
that an NAA may be appropriate to obtain "information for research purposes."




14-P-0359                                                                                       24
Planned Completion Date: August 30, 2014

OIG Recommendation 6: Establish a process for the submission, review and approval of
alternative NESHAP emission control methods.

Corrective Action 6: EPA Concurs with this recommendation.

We will establish a process to review applications for equivalency determinations.

On 23 July 2014, the Office of Air and Radiation provided further clarification stating that:

       OAR will establish a process to review applications for equivalency determinations
       based on the current Action Development Process (ADP). These determinations would
       include notice and comment rulemaking as required by the Asbestos NESHAP. The
       review process based on the ADP will provide for both external and internal stakeholder
       involvement. Information on this process, including the appropriate contact point for
       receiving requests, will be located on OAR’s current Asbestos NESHAP website.

Planned Completion Date: 2nd Quarter FY 2015

OIG Recommendation 7: Require the entry of all research into the ORD’s planning process.

Corrective Action 7: EPA concurs with this recommendation.

We agree with the OIG recommendation to require that all nationally significant research
that ORD undertakes be included in the planning process. In the years since the AACM
experiments were conducted, ORD has significantly changed its planning to include all
nationally significant research in the new planning process. We note, however, that there
are occasions when ORD is called upon to respond to unanticipated situations, such as the
Deepwater Horizon incident, or the recent chemical spill in West Virginia. These situations
may require that ORD respond promptly to address public health and environmental
emergencies. While these projects are carefully planned and executed, time constraints
may preclude inclusion in the formal planning process.

Corrective Action: Implementation of ORD Planning and Accountability Processes

Planned Completion Date: October 2012

OIG Recommendation 8: Obtain and utilize an automated system to track costs (including
full-time-equivalent hours) allocated to each research project.

Corrective Action 8: EPA concurs with this recommendation.

ORD agrees with the need to enhance internal controls, including allocations, and has
addressed this issue with our response and concurrence with OIG Recommendations #1, #7 and
#9. The improved internal process outlined under that response ensures that all ORD research



14-P-0359                                                                                       25
projects are being appropriately tracked and planned to prevent similar incidents related to
OIG's findings regarding the AACM studies.

 OIG Response 8: We have reviewed the ORD comments and met with ORD
 personnel on this issue. The ORD efforts to establish meaningful baselines for its
 projects is a good first step in measuring performance. However, we determined,
 and ORD personnel confirmed, that their proposal does not capture actual cost data,
 which is the weakness discussed in this report. Absent the actual costs, ORD has no
 means to determine the efficiency and actual costs of its research projects. The OIG
 and agency have not agreed on a course of action to remedy and/or address the
 recommendation. The status of this recommendation is unresolved with resolution
 efforts in progress.


OIG Recommendation 9: Capture and record in-kind contributions to research projects
(including contributions from outside entities and interoffice entities) in the automated system.

Corrective Action 9: EPA concurs with this recommendation.

ORD has made significant changes to the research planning process and requires that all
nationally significant research, including research conducted to support rule making, is included
in this new process. Consistent with our responses to Recommendations # 1, #7, and #8, ORD
will now capture significant EPA contributions to ORD research projects. We believe this
addresses the critical management and oversight control process issues identified by the OIG.
With modification, existing EPA systems will allow us to achieve the controls to track the
contributions mentioned above although they do not capture expenditure data.

At this time, the Agency does not have the legal authority to develop binding agreements to
require this information from outside entities when no money is exchanged. Financial reporting
on in-kind contributions by outside entities is only done when statutorily required and when
funding is exchanged, such as through assistance agreements. However, in most instances,
collaborative work is accomplished through the use of vehicles such as a Memorandum of
Understanding (MOU), where funds are not exchanged. An MOU is a signed and legally non-
binding document that describes the intention of the alliance members to work together to
address a shared development challenge. EPA can request cost information related to in-kind
contributions within these agreements, but it is not a legally binding requirement.

Planned Completion Date: November 30, 2015

OIG Recommendation 10: Establish policy and procedures to track, reply to and resolve
internal review comments for each research project.

Corrective Action 10: EPA concurs with this recommendation.

ORD is committed to appropriately resolving all internal comments received on its research.
We currently have in place several processes that allow for review of ORD's research, including
management review up to the Associate Lab or Associate Center Director. For some research,


14-P-0359                                                                                      26
ORD carefully tracks and responds to comments received during internal review. ORD will
expand this approach to cover all nationally significant research.

Corrective Action: ORD will develop a process applicable across ORD for tracking comments
received and their resolution.

Planned Completion Date: 4th quarter, 2015

OIG Recommendation 11: Update research design guidance to include steps that identify
rules, regulations and training that applies to each research project, especially work conducted
outside of the laboratory.

Corrective Action 11: EPA concurs with this recommendation.

It is ORD's policy to comply fully with Federal and EPA policies, procedures, manuals and
directives, as well as all applicable, federal, state, and local rules and regulations. Currently, our
ORD labs have procedures for the review of project specific health, safety, and environmental
plans to ensure compliance. To standardize these procedures across the organization, ORD-
wide guidance that builds upon our existing procedures will be enhanced. This will involve
updating and enhancing our current practices regarding the identification of applicable safety,
health, and environmental rules, regulations and training that applies to research projects.

Revised Corrective Action: To standardize ORD safety, health, and environmental
management procedures across the organization, ORD‐wide guidance that builds upon our
existing safety, health, and environmental management procedures will be enhanced.

Completion Date: 4th Quarter FY 2015

OIG Recommendation 12: Assess whether penalties are warranted for violating the NESHAP
in the AACM 2 experiment.

Corrective Action 12: Penalties cannot legally be assessed against any party in this matter. As
noted on Page 5 of the draft report, "The AACM 2 demolition experiment occurred on July 28,
2007, on a two-story, World War II-era building at Fort Chaffee, Arkansas." Under the federal
statute of limitations (28 U.S.C. § 2462), the 5-year limitations period for any potential
NESHAPs violations during the AACM 2 experiment expired in July 2012.

 OIG Response 12: We agree with the statement that the statute of limitations has
 expired. We removed the recommendation.




14-P-0359                                                                                         27
                                                                   Appendix B

 Agency Technical Comments to Official Draft Report
               and OIG Comments

                      ORD Technical Comments
Review Draft         Comment
Page 1,              Replace "safe" with "no known risk-free." Safety is a
Background, Line 1   concept in this case determined by statute. For example,
                     EPA has determined that the level of asbestos associated
                     with the current NESHAP "protects public health with an
                     ample margin of safety," as required by the Clean Air Act,
                     even though that level is not risk-free.

                     OIG Response: EPA had documented that there is no
                     known safe level of exposure to friable asbestos
                     (http://www.epa.gov/oecaagct/ttox.html). Therefore the
                     change is appropriate.


Page 3, intro        Request revision of sentence to more clearly explain that
sentence             while the alternative method investigation was in progress
                     over a period of more than 10 years, the actual AACM
                     demolitions were conducted for only a few days over a 2
                     year period (2006 and 2007). An alternative could be:
                     "The EPA assessment of an alternative method to
                     demolish buildings containing asbestos began in 1999
                     with the introduction the Fort Worth Method under Project
                     XL, with actual demolitions using the AACM occurring in
                     2006 and 2007. The effort to evaluate an alternative
                     method terminated in 2011."

                     OIG Response: We added text to state that the actual
                     demolitions occurred over a few days in 2006 and 2007.




14-P-0359                                                                     28
Page 5, under       For accuracy, please change "ORD Assistant
"ORD Cancels        Administrator" to "Deputy Assistant Administrator for
Experiments"        Science."

                    OIG Response: Documentation indicates that the ORD
                    Assistant Administrator made the decision to terminate
                    based upon a request from the Deputy Assistant
                    Administrator. We will make that clarification.


Page 5. Last full   Request a change of text to read: "Our evaluation scope
sentence            spanned the design, conduct, reviews and subsequent
                    discussions relating to the AACM experiments from 2004
                    to 2012 ... " This language is requested clarify to the
                    reader that the actual experiments did not take place over
                    an eight year period.

                    OIG Response: We clarified that the experiments took
                    place in 2006 and 2007 and the research ended in 2011
                    with the decision from the ORD Assistant Administrator.
                    We do not include any subsequent administrative tasks
                    in 2012 as extending the research.


Pages 8-9           Request the draft be revised to clarify that the processes
                    to pursue regulatory changes to the asbestos NESHAP do
                    not specify or control the means of pursuing research on
                    alternatives to that regulation. The processes designed to
                    make regulatory changes (e.g., ADP) are not designed
                    (and are not used) to plan and design research. Neither
                    the ADP nor NESHAP provide mechanisms to conduct
                    research, nor the necessary controls to oversee research.


                    We request that the IG delete the section on the ADP and
                    add a section entitled "Research Planning Process."
                    Please refer to our earlier comments for possible
                    language to use.

                    OIG Response: The report language was modified to
                    show that had the EPA continued with Project XL or the
                    ADP, or initiated the NESHAP process, the AACM
                    research would have had stronger internal controls.




14-P-0359                                                                    29
Page 8, paragraph   The first sentence notes "3 regulatory methods" as means
1                   to pursue changes to NESHAP. One of the methods
                    appears to be "Project XL." Request the IG revise this
                    section to reflect that Project XL was a research
                    mechanism with the intent to develop it with EPA
                    innovative strategies to test better or more cost-effective
                    ways of achieving environmental and public health
                    protection. While the results of XL projects could lead to
                    changes in EPA regulations, policies, or procedures,
                    Project XL was not a "regulatory method" or prescribed by
                    regulation.

                    OIG Response: We revised the text to state that three
                    mechanisms existed that would have forced stronger
                    internal controls over the AACM research had they been
                    followed throughout the research.


Page 8, paragraph   Insert after the first sentence: "It has since been
3                   eliminated and stopped accepting new projects for
                    consideration in 2002."

                    OIG Response: We revised the report to language as
                    follows: EPA states that it has since been eliminated and
                    stopped accepting new projects for consideration.




Page 9-The Action   Request the IG consider revision or elimination of the
Development         discussion of the ADP. The ADP is an EPA mechanism to
Process             consider possible regulatory changes such as a change
                    the NESHAP, but it is not a mechanism to conduct or
                    manage research. Available research data would be an
                    input to the ADP, but would not be determined by the
                    ADP.

                    OIG Response: Please see our previous response on
                    this issue.

                    Request the last sentence in the first paragraph be
                    revised to reflect that the AACM proposal was entered
                    into the ADP process for an extremely short period of
                    time, and was quickly withdrawn. While "revisions to the
                    NESHAP" (a regulatory action) was "tiered" as a potential


14-P-0359                                                                    30
                     action for the ADP (SAN 5181: National Emissions
                     Standards for Asbestos - Amendments), it was withdrawn
                     quickly when the Agency determined sufficient information
                     was not available.


                     OIG Response: We added the documented reason for
                     the withdrawal for clarification. In 2008, the EPA’s
                     Regulatory Information Notice Data for 2060-A064
                     stated the following reason for withdraw of the regulatory
                     action: “However, we determined that initiating this
                     action was premature because we had not completed
                     testing the AACM. Therefore, we have withdrawn this
                     action until all testing and evaluation of the test results,
                     including peer review, are complete.”


Page 9 -10,          After a technology or method has been demonstrated, a
NESHAP approval      party can apply for approval as an alternative measure to
method section       NESHAP. Because the AACM research was not
                     successfully completed, no application as an alternative
                     measure was sent to EPA. The NESHAP alternative
                     method option permits the Administrator to approve an
                     alternate means of asbestos emission limitation if in the
                     Administrator's judgment, the alternative means will
                     achieve a reduction in emissions at least equivalent to
                     methods already approved and in use. This does not
                     prescribe a method to obtain this information nor is not a
                     means to conduct research. The NESHAP regulation only
                     provides an option for the Administrator to consider
                     research findings for a regulatory determination, i.e., that
                     this new method is equivalent to the existing standard.

                     Request the IG revise the report to reflect that NESHAP
                     regulations do not provide research overview or planning.

                     OIG Response: We have modified the report to state
                     that the NESHAP process would have forced EPA to
                     follow stronger internal controls for the AACM research if
                     that mechanism had been selected.



Page 10, last full   Please see prior comments concerning the ADP and
sentence             NESHAP. Also, please note that enforcement discretion
                     was required to conduct the research under any


14-P-0359                                                                      31
                     mechanism used. Due to the prescriptive work practice
                     standards of the NESHAP, testing of alternative methods
                     would require not following all of work practice standards
                     and thus violate NESHAP. Enforcement discretion was
                     necessary to allow the research. The 2 viable methods to
                     conduct research at that time were the research planning
                     process, and prior to 2002, Project XL.

                     OIG Response: That is speculative. What EPA has not
                     considered is that if the prior problems with the
                     research, identified internally, had been addressed, the
                     experiments may not have been allowed.



Page 11,             Please see prior comments concerning the ADP and
paragraph 3, 1st     NESHAP.
sentence
                     OIG Response: Please see the prior OIG Response.


Page 12,             Request the IG to revise the text to clarify that the
paragraph 1          experiments were not ongoing over a 12 year period.
                     Suggested language " ..... while allowing the design,
                     conduct, reviews and subsequent discussions relating to
                     the AACM experiments to continue for 12 years."

                     OIG Response: We revised the report text to indicate that
                     the research on the experiments continued for 12 years.
                     We have also added text stating that the experiments
                     took place over a few days in 2006 and 2007.




Page 12, paragraph   Please see prior comments concerning the ADP.
3, 2nd sentence
                     OIG Response: Please see the prior OIG Response.




14-P-0359                                                                       32
Page 14, 3rd bullet   ORD addressed many workgroup concerns and
                      comments. Request change text to read "Did not address
                      some reviewers concerns regarding the experiments."

                      OIG Response: We changed the text to read that ORD
                      did not address significant comments as detailed in the
                      report.


Page 15, first 2      Please use past tense in this paragraph, as this describes
paragraphs            the planning process as it was at the time of the AACM. It
                      has changed significantly since then.



                      OIG Response: No revision is necessary. We reviewed
                      ORD’s Research Planning and Accountability Process
                      Overview and believe that our description of the
                      planning process still applies.
Page 16,              Insert the word "may" as follows: "This action may have
paragraph 2, last     put the health of people ... "
sentence
                      OIG Response: We revised the report as requested.



Page 17. Last         Request insertion of the word "research" as follows: " ...
section, end of the   health and safety questions were outside of the scope of
3rd sentence          the research project." ORD agrees that all research
                      should follow appropriate health and safety regulations to
                      protect workers and others. The intent of the statement
                      was the AACM study was an engineering research study
                      to evaluate the environmental impacts and emissions of
                      an alternative asbestos control technology. The research
                      was not intended as a health and safety study.
                      OIG Response: We cannot support the revision. The
                      report states that EPA failed to consider health and
                      safety issues, not that the research was a health and
                      safety study.

Page 19, section on   The EPA's National Recommended Water Quality Criteria
"Potential Clean      include a recommended criterion for asbestos in waters of
Water Act             the United States. The edits to this section below are
Violations"           intended to clarify the section 304(a) program.


14-P-0359                                                                       33
                      The EPA's National Recommended Water Quality Criteria,
                      which EPA issues are published pursuant to Section
                      304(a) of the Clean Water Act (CWA), represent, among
                      other things, the level of various pollutants that may
                      be present in waters of the United States and still
                      ensure protection and propagation of fish, shellfish,
                      and wildlife and recreation in and on the water have
                      limits on the discharge of certain contaminants into the
                      waters of the United States. For asbestos, the Agency's
                      recommended criterion is discharge limit is no more
                      than 7 million fibers (longer than 10 micrometers) per liter.
                      The AACM project team was not aware of the EPA's
                      national recommended criterion for asbestos legal
                      limit on asbestos discharge.

                      OIG Response: We will ensure that the language is
                      consistent with the text of the CWA. However, 7 million
                      fibers per liter is the legal limit because the state of
                      Arkansas has not prescribed a stricter limit than the
                      default federal limit.


Page 19, section on   Request the IG add the word "friable" to this sentence: For
"Potential CERCLA     friable asbestos, the reportable quantity is 1 pound
103 Violations,"      released in a 24 hour period. The note in 40 CFR 302.4
end of first          says the 1 pound per 24-hour period only applies to friable
paragraph             asbestos.




14-P-0359                                                                        34
               OIG Response: We revised the sentence as follows: For
               asbestos, the reportable quantity is 1 pound of asbestos
               fibers released in a 24-hour period.

               Title 40 CFR 302.4 does identify that the reportable
               quantity for asbestos is 1 pound of friable asbestos in a
               24-hour period. However, CERCLA does not define the
               term friable. A 1990 OECA legal analysis concluded
               friable under CERCLA does not have the same meaning
               as defined under the Clean Air Act. OECA states that
               friable under CERCLA means the release of pure
               asbestos [e.g., asbestos fibers], because the reportable
               quantity is restricted to the hazardous substance
               component of a solution or mixture. Thus, the individual
               asbestos fibers is the toxic component within the joint
               compound matrix or Transite® cement-board matrix.



                OAR Technical Comments
Review Draft   Comment
Page 1,        Suggest deletion of the following paragraph:
Background,
Paragraph 2    Required NESHAP Revisions. The EPA made its last
               comprehensive revision to the asbestos NESHAP in 1990.
               The 1990 Clean Air Act Amendments under Section
               112(q) required that the EPA review the asbestos
               NESHAP by 2000. The EPA’s Office of Air and Radiation
               (OAR) is responsible for the asbestos NESHAP, and the
               office said it does not have the resources to perform an
               asbestos NESHAP review and other required reviews.

               Nothing in the paragraph seems to be germane to issues
               raised by this review.

               OIG Response: The information is necessary background
               to understand that required updates to the asbestos
               NESHAP are overdue because EPA states the
               resources are not available.




14-P-0359                                                              35
Page 1, last   The title of the following paragraph is misleading. EPA
Paragraph      offices have never "offered" NESHAP alternatives. We
               have done research on different aspects of alternative
               methods of removing asbestos containing material at the
               request of outside entities.

               OIG Response: The title has been changed to read EPA
               Offices Researched NESHAP Alternatives.

               Suggested edits: EPA Offices Offer NESHAP Alternatives.
               In 1999, the city of Ft Worth proposed their method to
               EPA. EPA offices have researched various alternative
               demolition work-practice methods, such as the Fort Worth
               Method and the AACM, as alternatives to the current to
               augment the asbestos NESHAP provisions. Both the Fort
               Worth Method and the AACM of these methods involve
               wetting the building prior to and during the demolition in
               an effort to limit asbestos fiber release. Both of these
               methods are similar to the NESHAP-approved provision
               used for buildings that are structurally unsound and in
               danger of imminent collapse (imminent collapse
               provision). Under the imminent collapse provision,
               demolition crews wet the RACM and shred remove it
               using the demolition equipment.

               The words “in an effort” need to be added because we
               can't say the wetting really always perfectly minimizes the
               amount of asbestos releases. In addition, the asbestos
               material is not "shredded." It is removed using equipment
               which will break the material, but does not shred it. The
               term "shred" makes it look like we run the material through
               a shredder.

               OIG Response: The report has been revised to state that
               wetting attempts to limit asbestos fiber release and the
               demolition equipment is used to break the RACM.

Page 2, Last   Suggested Edits:
Paragraph
               The City of Fort Worth Requests to use the Wet Method.
               EPA Offices Proposed Wet Methods. The goal of the
               AACM and the Fort Worth Method research was to
               propose evaluate an alternative demolition procedures
               that could then potentially be incorporated into the
               asbestos NESHAP.


14-P-0359                                                              36
                     The EPA offices did not propose the wet method. The wet
                     method was proposed by the City of Fort Worth.

                     OIG Response: The report has been revised to indicate
                     that the city of Fort Worth proposed the wet method.
                     However, documentation indicates that the purpose of
                     the work was to propose changes to the asbestos
                     NESHAP.



Page 4, 2nd          Suggested Edits:
Paragraph, line 13
                     The OIG also recommended the agency develop a single
                     guidance document for proposals under the Agency's
                     innovation strategy which provides fundamental criteria
                     and is published in the Federal Register to ensure
                     national policy decisions are based on sound science.

                     As written, the omission of the added text made the
                     sentence confusing.

                     OIG Response: We made the suggested revision.



Pages 8-9 (Overall   Please refer to our earlier comments by ORD and OAR.
Comments)            Also, we suggest that you combine the NESHAP
                     Alternative Method Approval and the ADP into one
                     available method.

                     OIG Response: Please see the previous OIG comment
                     on this subject.


Page 12 (Sub-        Suggested Edits:
heading)
                     The Key Issue Was How to Measure Environmental
                     Performance of the NESHAP versus the Wet Methods
                     Equivalent Emissions




14-P-0359                                                                    37
               OIG Response: The requested revision is not supported.
               As stated in the report, the key issue is equivalent
               emissions regardless of the method used.


Page 12, 1st   In addition to the ORD comments on this paragraph, we
Paragraph      have the following suggested edits:

               For AACM research, the main unresolved issue was how
               to demonstrate equivalent measure emissions from the
               two methods in a way that equivalency could be
               determined. Emissions to the asbestos NESHAP. During
               the development in 1999, Project XL work group members
               identified the information needed need to determine the
               environmental performance of the wet method relative to
               the Asbestos NESHAP equivalency as a major issue.
               The EPA offices involved, including Region 6, ORD,
               OECA, OAR, and the Office of Policy Economics and
               Innovation, left the issue of equivalency unresolved while
               allowing the experiments to go forward for 12 years.
               Consequently, the EPA could not use the resulting data to
               propose NESHAP amendments, because known
               NESHAP equivalency problems with Project XL and
               AACM experiments remained unaddressed.

               We could not use the data because we had concerns
               about the accuracy of the data, not because we had not
               determined what equivalency was. We were planning to
               determine equivalency as part of a future rulemaking.

               OIG Response: The requested revision is not supported.
               As stated in the report, the key issue is equivalent
               emissions regardless of the method used.


Page 12, 2nd   Suggested Edits:
Paragraph
               Only the OAR, as the administrator of the NESHAP, can
               determine clarify what constitutes equivalent asbestos
               emissions. Without this definition, the ORD could not
               develop an experimental design that met the OAR’s
               needs. However, the steps to obtain a definition from the
               OAR and information needed are not clear. The NESHAP
               regulation provides limited details on what information


14-P-0359                                                               38
               should accompany an application, and the OAR has no
               guidance or procedures for submissions. Due to this lack
               of resolution, the EPA could not use the resulting data to
               propose NESHAP amendments.

               We do not agree with the deleted sentence. If the
               experimental design was able to adequately measure the
               potential asbestos release (if any), then the project would
               have been more successful. In addition, one of the
               contributing reasons the project failed was because we
               never could decide on equivalency. We had hoped to
               determine the environmental performance of the AACM
               relative to the current NESHAP. The reason we never
               used the data was there were concerns about the
               accuracy of the data. Also, if we had completed the AACM
               2 and 3 reports, and we saw significant asbestos releases,
               then it was understood by all parties involved that we
               would have not continued on and proposed amendments
               to the NESHAP.




               OIG Response: We cannot make the suggested
               revisions. As stated previously, equivalent emissions
               was the key component to any proposed change to the
               asbestos NESHAP and the EPA effort did not
               adequately address the issue. Absent an understanding
               of equivalent emissions from OAR early in the process,
               it does not seem logical for EPA to expend resources
               without a measurable end goal.
                OECA Technical Comments
Review Draft   Comment
Page 1, 2nd    The draft report states: According to the asbestos
Paragraph      NESHAP, trained technicians must remove regulated
               asbestos-containing material (RACM) intact prior to
               demolition.

               The asbestos NESHAP requires that an on-site supervisor
               or foreman be trained, but there is no NESHAP training
               requirement for the workers doing the asbestos removal.
               See 40 C.F.R. § 61.145(c)(8) ("[N]o RACM shall be
               stripped, removed, or otherwise handled or disturbed ...



14-P-0359                                                               39
                      unless at least one onsite representative, such as a
                      foreman or management-level person or other authorized
                      representative, trained in the provisions of this regulation
                      and the means of complying with them, is present.”). The
                      same assertion about trained technicians is made on
                      Page 2 of that chapter.

                      OIG Response: The requested revisions cannot be
                      made. To conduct an asbestos demolition, one has to
                      comply with the asbestos NESHAP and OSHA’s
                      regulations. The other requirement for training is in the
                      OSHA regulation. The report will be revised to
                      emphasize that point.


Chapter 2, Page 10,   The draft report states that there was no supporting
Heading: "No          documentation that provides an explanation of the
Justification for     reasons justifying issuance of the NAA. However, for
NAA Approval"         clarity it should be noted that both NAAs issued for the
                      AACM projects referred to and relied on memoranda from
                      Region 6, which contained the justification and rationale
                      for the project.

                      OIG Response: The report refers to the OECA
                      requirements to issue a NAA, not the Region 6
                      justification and rationale for a project that could have
                      been accomplished without the NAA letters with more
                      controls. No changes made.


Chapter 2, Pages
11-12                 The discussion in this section and related
                      recommendations regarding OECA's oversight role when
                      research is being conducted under an NAA raise a
                      number of organizational and jurisprudential
                      considerations. As a threshold matter, the discussion of
                      the level of oversight and verification for OECA to
                      determine that the AACM project's safety protocols were
                      adequate and protective, for example, would require
                      expertise and experience in the design and execution of
                      research projects. However, because research is not an
                      OECA function, OECA does not have this type of
                      technical expertise. Lacking this ability, OECA does not
                      believe that it is in a position to "second guess" another
                      part of the Agency to which the research role, function
                      and expertise is committed. While OECA does have


14-P-0359                                                                         40
                      scientific and engineering expertise, it is in the context of
                      its enforcement and compliance function - not in the
                      carrying out of the kind of research that was being
                      conducted for the AACM project. Similarly, verifying that
                      the quality assurance plan for the AACM 3 experiment
                      included adequate provisions to ensure compliance with
                      OSHA's worker excursion sampling regulations is likewise
                      not a matter committed to OECA's role or expertise.

                      Because OECA does not believe that it can be in a
                      position to oversee (and verify) research and
                      experimentation conducted by another part of the Agency,
                      OECA will not in the future provide NAAs for these
                      activities, and will revise its policy to remove the provision
                      stating that an NAA may be appropriate to obtain
                      "information for research purposes." In doing so, we
                      recognize that NAAs for this purpose are extremely
                      uncommon (the NAAs for the AACM projects appear to be
                      the only NAAs ever provided for ORD-related work),
                      indicating both that they are not generally necessary nor
                      do they serve a critical role in support of the Agency's
                      research and experimentation functions.

                      OIG Response: We appreciate the additional language
                      provided to support OECA’s determination not to issue
                      an NAA for similar research activities.


Chapter 3, Page 18,   Suggested Edits:
2nd paragraph
                      The NRMRL officials also cannot verify the completion
                      applicability of the required environmental review and
                      normally requirements, including whether an
                      Environmental Impact Statement (EIS) was completed for
                      the AACM, as set out in 40 CFR 6.200(a) and 40 CFR §
                      6.207(a) respectively, to satisfy the National
                      Environmental Policy Act (NEPA).8 The An environmental
                      review under NEPA and EIS are documents that ensures
                      that federal actions, including research experiments,
                      consider and limit negative the environmental effects on
                      test environments. However, in so far as the research was
                      conducted under Section 103 of the Clean Air Act, the
                      research would have been exempt from NEPA. A former
                      NRMRL program manager, who is now retired, told us
                      that the NRMRL left employees to their own resolve with



14-P-0359                                                                         41
            respect to NEPA requirements, and that NRMRL
            contractors typically handled NEPA requirements and the
            EIS. In fact, the former program manager noted that his
            people did not understand NEPA.

            8 We believe the most applicable subsection in the EIS
            regulation is 40 CFR 6.207(a}(3}(vii). That subsection
            states that an EIS is normally required when "[t]he
            proposed action involves uncertain environmental effects
            or highly unique environmental risks that are likely to be
            significant."

            Our edits clarify the provisions of NEPA as well as the
            CAA exemption pursuant to Section 7(c) of the Energy
            Supply and Environmental Coordination Act of 1974 (15
            U.S.C. 793(c)(l)). Further we point out that NEPA requires
            Federal agencies to consider the environmental impacts
            of their proposed actions; however, it does not specifically
            require agencies to limit those impacts.

            OIG Response: We adjusted the wording to reflect
            ORD’s policy and the requirements from 40 CFR Part 6,
            but cannot make all the requested revisions.




14-P-0359                                                             42
                                                                             Appendix C

                                   Distribution
Office of the Administrator
Deputy Administrator
Assistant Administrator for Air and Radiation
Assistant Administrator for Enforcement and Compliance Assurance
Assistant Administrator for Research and Development
Agency Follow-Up Official (the CFO)
Agency Follow-Up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
Principal Deputy Assistant Administrator for Air and Radiation
Principal Deputy Assistant Administrator for Enforcement and Compliance Assurance
Principal Deputy Assistant Administrator for Research and Development
Audit Follow-Up Coordinator, Office of the Administrator
Audit Follow-Up Coordinator, Office of Research and Development
Audit Follow-Up Coordinator, Office of Air and Radiation
Audit Follow-Up Coordinator, Office of Enforcement and Compliance Assurance




14-P-0359                                                                           43
